HHS/OIG, Audit -"Review of Medicare Claims for Air Ambulance Services Paid to Allegheny
General Hospital,"(A-03-04-00014)
Department
of Health and Human Services
Office of Inspector General -- AUDIT
"Review of Medicare Claims for Air Ambulance Services
Paid to Allegheny General Hospital," (A-03-04-00014)
June 12, 2006
Complete
Text of Report is available in PDF format (743 kb). Copies can also be obtained by
contacting the Office of Public Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
Our objective was to determine whether Allegheny General Hospital (Allegheny) claimed Medicare air ambulance services during calendar year 2002 in accordance with Medicare requirements.  Contrary to Medicare billing requirements, Allegheny transported patients beyond the nearest hospital with appropriate facilities on 45 of 100 sampled claims, and transported a patient by air ambulance when a ground ambulance could have transported the patient on one of the sampled claims (medically inappropriate ambulance service).
We recommended Allegheny refund $10,134 to the Medicare program for air ambulance overpayments, exclude mileage beyond the nearest hospital with appropriate facilities from Medicare air ambulance claims, and bill Medicare for only medically appropriate air transports.  Allegheny disagreed with our findings and recommendations.  Allegheny cited Federal locality requirements, and claimed Federal Emergency Medical Treatment and Active Labor Act (EMTALA) requirement’s were inconsistent with requirements to transport to the nearest appropriate facility.  Allegheny did not support its comments about locality with documentation, and Federal EMTALA requirements are not inconsistent with requirements to transport to the nearest appropriate facility.